<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-778]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-778

 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2015

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
        
        
        
        
        
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-283 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

               John P. Kilvington, Acting Staff Director
         Mary Beth Schultz, Chief Counsel for Homeland Security
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
     Susan B. Corbin, U.S. Department of Homeland Security Detailee
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
         Daniel P. Lips, Minority Director of Homeland Security
 Scott M Behen, Minority U.S. Government Accountability Office Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     4
    Senator Ayotte...............................................    11
    Senator Johnson..............................................    14
    Senator McCaskill............................................    18
    Senator McCain...............................................    20
Prepared statements:
    Senator Carper...............................................    37

                               WITNESSES
                      Thursday, February 27, 2014

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     5
    Prepared statement...........................................    40
    Responses to post-hearing questions..........................    45

 
 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2015

                              ----------                              


                        THURSDAY, MARCH 13, 2014

                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, McCaskill, Coburn, McCain, 
Johnson and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning. This hearing will come to 
order.
    Secretary Johnson, nice to see you. I have not seen you in 
a while. And, how are you today?
    We are happy that you could come by and visit.
    I understand you have not had a chance to testify yet on 
the budget, the President's budget for the Department of 
Homeland Security (DHS), and so this is a unique opportunity.
    What is this? One of four?
    Secretary Johnson. This is three of four. Each opportunity 
is an opportunity to say something new. That is how I look at 
it.
    Chairman Carper. All right. We will be looking for 
consistency in all of those different budget appearances.
    I like to say, if it is not perfect, make it better. Well, 
you have had an opportunity to make it better each time.
    Secretary Johnson. I am happy to be here.
    Chairman Carper. And we are delighted that you are here, 
but our thanks to you for joining us today.
    We are pleased that in recent weeks we have been able to 
help you at least begin to put together a talented group of 
people around you, and I am very grateful to Dr. Coburn for the 
work that he has done with his leadership to help make that 
possible.
    In fact, last week, we scored something like a hat-trick by 
confirming individuals, good people, to three key positions at 
the Department including Suzanne Spaulding as Under Secretary 
of National Protection and Programs Directorate (NPPD), John 
Roth, to be the Inspector General (IG) at the Department of 
Homeland Security, and Gil Kerlikowske as the Commissioner of 
Customs and Border Protection (CBP). They are ready to go, 
anxious to go, and some of them have actually been there 
working for a while.
    And we still have more to do. We are going to try to--as 
Dr. Coburn says, we are going to try to do an off-the-floor 
markup for Reggie Brothers as well.
    Providing strong and steady leadership is critically 
important to the Department and the security of our Nation. 
Providing adequate funding for the Department to carry out its 
mission is also vitally important and a central part of our job 
here in Congress, as you know.
    The President's request for $38 billion in discretionary 
funding for the Department makes some very tough choices and 
cuts the Department's discretionary budget by $1 billion, or 
almost 3 percent below 2014 appropriated levels.
    Many other departments, including several without national 
security missions did not see these kinds of cuts. In fact, 
they saw some increases.
    If you factor in the requested, and much deserved, one 
percent pay raise for Federal employees in this budget, DHS 
will receive about $100 million less than it did after 
sequestration reduced its fiscal year (FY) 2013 appropriation.
    As the Government Accountability Office (GAO) recently 
reported, the sequestration cuts had a real and negative impact 
on DHS. For example, operations were scaled back at some 
components, and first responder and preparedness grant funding 
was reduced, resulting in canceled training and hiring freezes 
across the country.
    While some of the impacts of sequestration were immediately 
visible, many of the negative effects may not be felt for some 
years to come. Some DHS officials have expressed concern that 
if funding levels were to be further reduced the Department's 
ability to meet mission priorities may be affected as well as 
employee morale.
    The fact that the budget request for DHS is below the 
sequestration level of funding is just, frankly, concerning. I 
am concerned that these reduced funding levels will negative 
impact the ability of the Department to effectively carry out 
all of its missions.
    In recent years, we have had a number of incidents that 
remind us of just how important that mission is--the attempted 
airline bombing on Christmas Day in 2009, the attempted 
terrorist attacks in Times Square a year later, the devastation 
wrought by Hurricane Sandy in 2012 and the tragedy in Boston 
less than a year ago. When we factor in the growing cyber 
threat and the threat we face from foreign fighters gaining 
experience in places like Syria and perhaps traveling here to 
do us harm, it is easy to understand why this budget request 
raises both concerns and questions from Congress.
    That said, we all know we are facing extremely difficult 
budgetary times and we must be diligent to ensure the taxpayer 
funds are well spent.
    I have said it before, and I will certainly say it again, 
all Federal agencies and departments, including DHS, have to 
shift from a culture of spendthrift to a culture of thrift so 
that we can assure American taxpayers that their hard-earned 
money is being spent responsibly and effectively.
    Our new Secretary seems to have taken this message to 
heart, identifying $200 million in cost savings in the proposed 
budget, and we welcome that.
    It is also good to see that this budget proposes much 
needed funded for cyber security. However, I will be carefully 
examining this proposal--we will be carefully examining this 
proposal to determine whether the funding request is sufficient 
to support the Department's efforts to help companies adopt the 
cyber framework that has been released by the National 
Institute of Standards and Technology (NIST).
    Of course, resources are low and are not going to get the 
job done, and that is why passing bipartisan legislation to 
complement the President's cyber security Executive Order (EO) 
remains one of my highest priorities this year. And, as I say, 
I think that is a priority that is shared by our Ranking 
Republican.
    I also welcome the Administration's continued commitment to 
the security of our Nation's borders demonstrated in this 
budget. The budget maintains the current record level of 
staffing for the border patrol and makes targeted investments 
in what I call force multipliers--technologies such as advanced 
radars, cameras, and ground sensors. And these efforts will 
build on the tremendous progress that has been made in securing 
the border over the past years.
    The President's budget request includes proposals to help 
pay for these smart investments, in part, by raising the fees 
that Customs and Border Protection charges for inspecting 
passengers and goods at our airports and seaports. This new 
revenue would be used to deploy some 2,000 new officers at our 
ports of entry.
    Let me say that again--2,000 new officers at our ports of 
entry. That would be a positive development for both our 
economic and national security.
    The budget also includes a proposal to raise fees to 
continue efforts to secure our aviation system against 
potential attacks.
    I like to say that if something is worth having it is worth 
paying for, and I support these fee increases.
    I am not the only Member of Congress who supports these 
types of fee increases to cover the cost of providing critical 
government services. Republican Congressman and Budget 
Committee Chairman Paul Ryan said this last December, when 
speaking about authorizing new aviation security fees. This is 
quoting Chairman Ryan. He said, ``If you use a government 
service, pay for the government service. If you use airport 
security, pay for the airport security.''
    I could not agree more. If we want more officers expediting 
travel and trade at our airports, border crossings and 
seaports, and if we want more secure airplanes--and I think we 
do--then we ought to be willing to pay for it, just as 
Congressman Ryan suggested.
    If Congress does not support the requested fee increases, 
either the Department will have to cut about a billion dollars 
in additional funding from a budget that is already stretched 
thin or Congress will have to increase the discretionary 
funding it provides to the Department.
    Speaking of smart, strategic investments, I am encouraged 
to see the increase in funding for the consolidation of the 
Department headquarters at the St. Elizabeths campus. The 
funding request will help move this project along. Completing 
it is critical to improving the efficiency and effectiveness of 
operations and management of the Department. I think it is also 
critical for enhancing the morale of the members of the 
Department.
    And I also welcome the President's request for $45 million 
for the modernization of the financial management systems at 
the Department. That is a key investment to ensure that DHS can 
sustain its recently obtained clean audit.
    Again, we applaud that progress on the audit side. It is 
something Dr. Coburn and I have focused on for years, and it 
leaves one outlier now. That is the Department of Defense 
(DOD), and you put them on the spot.
    And my hope is that Tom and I and our colleagues can have a 
hearing here in a couple of months where we invite the Army, 
Navy, Air Force, and Marines, maybe somebody from the Coast 
Guard, and say, if they were able to do it over in the Coast 
Guard and Homeland Security, now it is your turn, and maybe get 
a little bit of interservice rivalry going on for a good cause.
    But, with that said, I am concerned about some of the 
budget's significant cuts to other key Homeland priorities. For 
example, I am troubled by the proposed cuts to the homeland 
security grants that DHS provides to State and local 
governments. As we saw clearly in response to the Boston 
Marathon bombing and the severe winter storms this year, State 
and local officials are the ones who will inevitably be on the 
front lines, responding to a terrorist attack or a natural 
disaster.
    While acknowledging that our approach to grant funding must 
be risk-based--and I would underline that, must be risk-based--
we want to make sure that the Department is able to continue to 
adequately support State and local responders to respond 
effectively where the risk is the greatest.
    Now let me turn to Dr. Coburn for whatever comments he 
wants to make.
    Again, welcome this morning.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Mr. Chairman, I do not have a formal 
opening statement, but I would like to say for the record how 
much I appreciate the service and sacrifice that the Secretary 
is willing to make in fulfilling this position.
    The other thing I would like to say is that it is such a 
breath of fresh air to have real leadership installed at 
Homeland Security, and I think the morale problem is going to 
go away under your leadership regardless of all the other 
problems that are going forward.
    So I would just like to personally thank you for both your 
leadership and your service, and I will have plenty of 
questions. Thank you.
    Chairman Carper. You bet.
    Secretary Johnson, your whole statement--in fact, I 
understand from Senator Landrieu, at whose Appropriations 
Subcommittee you testified yesterday, that you do not actually 
use a formal statement, that you had entered it for the record. 
We are happy to do that again. And she said you summarized and 
did a very nice job.
    So, however you want to proceed, please do.

 TESTIMONY OF THE HONORABLE JEH C. JOHNSON,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you very much, Mr. Chairman, Dr. 
Coburn, Senator Johnson, and Senator Ayotte.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Johnson appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    Let me just say I do have a prepared statement for the 
record, which has been submitted. Let me just make a few 
comments myself.
    First of all, I want to thank the Members of this Committee 
for your support and your courtesy. It means a lot to me, 
personally. It is a reaffirmation for me to work with terrific 
colleagues in the Legislative Branch on our common mission, and 
I very much appreciate that.
    I also very much appreciate the three confirmations of our 
DHS leadership last week--Mr. Kerlikowske for CBP; Suzanne 
Spaulding, our new Under Secretary; John Roth, our new IG.
    And we have three awaiting confirmation now, who I believe 
have been through committee--General Frank Taylor for 
Intelligence and Analysis (I&A), Dr. Brothers for Science and 
Technology (S&T) and Leon Rodriguez for Citizenship and 
Immigration Services (CIS).
    You probably can, but perhaps you cannot, appreciate how 
important it is for the morale of the Department to have new 
leadership, Senate-confirmed new leadership, coming into the 
Department. It injects new energy, and I think it is going to 
do a lot for morale.
    Mr. Chairman, you are correct that this budget submission 
reflects hard choices in a time of fiscal constraints. Not 
everyone is happy with our budget submission. We requested some 
cuts in certain places and some increases.
    I think given the environment which we are in this budget 
request adequately funds the Homeland Security mission.
    In terms of our counterterrorism effort, we make a number 
of requests for grant authorization and aviation security.
    We devoted right now a record amount of resources to border 
and port security. We are maintaining 21,370 border patrol 
agents at the borders. We have, with this request, a request to 
take our number of CBP officers up to 25,775. That is a record 
number.
    We have requested $90 million for surveillance at the 
border, which I think is particularly important. Surveillance 
technology aligns with what our agents on the front lines tell 
me when I visit the border, what they believe they need for 
added border security. So I am glad that the request includes 
$90 million for surveillance technology.
    In terms of cybersecurity, as you know, I am determined to 
make real progress on behalf of this country in the world of 
cybersecurity. Overall, across DHS, we have requested $1.2 
billion for cybersecurity, which includes law enforcement 
efforts by the Secret Service. It includes our cybersecurity 
efforts at headquarters. It includes the system that we are 
about to fully deploy to protect the ``.gov'' world.
    We have requested funding for the new national bio and agro 
facility in Kansas.
    Transportation Security Administration (TSA) Precheck, 
which is popular with the American public--I think it is an 
effective, efficient use of taxpayer dollars in that it both 
adds to our security and it is user-friendly, so to speak, 
because it shortens lines at the airports for those who conduct 
background checks.
    We are moving forward with our recapitalization of the 
Coast Guard fleet. We have requested funding for the eighth 
National Security Cutter (NSC). We have requested funding to 
move forward with the selection for the design phase for the 
Offshore Patrol Cutter (OPC), and we have requested funding for 
two new Fast Response Cutters (FRC).
    You are correct that we are asking for a restoration of the 
aviation infrastructure fee restoration to $420 million, and 
for the aviation security fee we have asked for an increase 
from $5.60 to $6.
    I agree with your observation that these requests reflect 
the general philosophy that if you use it you should pay for it 
as opposed to having the taxpayer in general pay for it.
    Someone like me, when I was in my private law practice, 
would fly frequently for business reasons. Other Americans do 
not. And so the budget submission reflects the request that for 
those who use aviation more often than those who do not, some 
emphasis ought to be on us paying a little bit more. So that is 
what is reflected here.
    I do believe that in these current fiscal times I am 
obligated to look for inefficiencies across the Department, and 
I believe we are doing that.
    We are creating a budget process--first time in the history 
of this Department--that is mission-based. It will start from a 
headquarters-level review of what our strategic missions ought 
to be. We then identify resources. And we then give the 
components overall guidance in terms of what they should be 
requesting of us and of the Congress rather than simply having 
it stovepiped, coming up from the components.
    We are also building a better acquisition process along the 
same lines that begins with an overall strategic review of what 
we think we need and an acquisition process which is more 
headquarters-centric, with an eye toward looking for 
inefficiencies and duplication.
    You are correct that for the first time we have a clean 
audit opinion. I would like to take credit for that, but I 
cannot. That reflects a number of years of hard work by our 
management personnel to get to that point. I do enjoy, however, 
being ahead of the pace of the Department of Defense in that 
regard.
    Again, thank you for your support and your friendship, and 
I look forward to your questions.
    Chairman Carper. OK. Thanks. Very nicely done.
    I want to start off with the last point that you made, and 
that is the clean audit. It is the kind of thing you have to 
continue to earn every year.
    Jane Holl Lute, who was our previous Deputy Secretary of 
the Department, testified before our Committee just before she 
left, and she talked about how she would literally go meet with 
Gene Dodaro who testified here yesterday--He is the head of 
GAO.
    And she would go meet with him almost monthly to literally 
go through the high-risk list. This Department has been on 
GAO's high-risk list since its inception.
    And she would go meet with Gene and say, OK, what do we 
have to do to get off the high-risk list in this area, and they 
would hammer it out.
    And she would take it back for action items and help make 
sure that what was needed was done.
    I would strongly encourage our new deputy to do that.
    And I would urge you, if you have not had a chance to work 
with Gene--he is a very strong and capable leader, and I would 
urge you to spend a little bit of time with him when your 
schedule allows.
    You mentioned TSA Precheck. I had the opportunity to use it 
this year, and also, Global Entry.
    I was in El Salvador to try to figure out how do we reduce 
the amount of illegal immigration coming from El Salvador, 
Honduras and Guatemala, 2 weeks ago, and I had a chance to use 
Global Entry. Those are really smart ideas.
    Dr. Coburn and I, and you, and others on our Committee, 
focus a whole lot on risk-based decisions. We have limited 
resources to spend. Let's just send those resources to where 
the risks are the highest.
    And I think TSA Precheck and Global Entry are smart 
approaches, and we commend those who are coming up with those.
    I want to go back to the borders. I know you have been down 
along the border.
    I was privileged to go last year with Senator McCain to the 
borders in his State, and also, I was joined for a little bit 
of time there by your predecessor, Janet Napolitano and had a 
chance to talk to a bunch of your people in Arizona.
    And then later I went over to Texas and had an opportunity 
to visit the South Texas border, which I believe you have 
already visited as well.
    I was struck by the high morale, of the folks in the green 
uniforms that we met with. They are proud of the work they do. 
I would say it is challenging work; it is not easy work, but it 
is important work. And I think they sensed our appreciation.
    Among the things that I learned about, or I came away with, 
is the idea that we do not need to add a whole lot more people 
in green uniforms between the ports of entry; we need to add 
people in blue uniforms at the ports of entry. The need to 
facilitate the movement of commerce and expedite trade is 
critical for our economy, and I think certainly helpful for the 
Mexican economy.
    With that in mind, would you go back and talk again about 
the user fees?
    As a former Governor, I used to call for, from time to 
time, an increase in the gas tax so that we could actually 
build roads, highways, and bridges in our State and support 
rail transit. And I do believe the things that are worth having 
are worth paying for, but it is a hard sell around here to 
convince folks to raise user fees, even from $5.60 to $6.
    And so I am going to ask you and give you another shot to 
make the case. And, know that it is something I support. I just 
want my colleagues to hear it again.
    Secretary Johnson. The 9/11 security fee, my understanding 
is that the increase to $5.60 last year was the first increase 
we have had in years. I think it was half that before then, and 
we just could not bring ourselves to increase the fee. And we 
did it last year by doubling it, essentially.
    This year, we are asking for a relatively modest 40-cent 
increase to $6.
    I agree with the basic philosophy that a user fee--a fee 
increase targeted at the people who use it, is generally a good 
thing.
    And the way I would make that case, politically, is rather 
than all of your constituents in general paying through general 
income tax for aviation security, why not place some emphasis 
on having those who use it more often bear a little more of the 
price tag for it?
    If I am a corporate lawyer in business, as opposed to being 
the Secretary of Homeland Security, I would not mind paying a 
little more each time I get on an airplane, which is in my 
private life probably once or twice or three times a month, 
versus having your constituent in Delaware, who may not fly 
nearly as often, share that cost with me.
    So I do not have a problem making that case, and I think 
that when you look at the overall scheme the fee increases we 
are asking for are relatively modest ones.
    Chairman Carper. All right. Thanks very much.
    Let's go back to the border for just a minute. I was 
talking about my view. I do not want to put words into the 
mouth of my compadre here, Dr. Coburn, but if you look at the 
Senate-passed immigration bill, we put huge increases in there 
for border patrol. I think we basically doubled the number of 
human beings we have between the ports of entry.
    That is not what we need to do. In my view, we need to add 
more people at the ports of entry, not between the ports of 
entry.
    And what we do need to do--and this budget does it to some 
extent--is provide funding for what I call force multipliers, 
where we can use technology to enhance the abilities and the 
capabilities of the men and women in the green uniforms, the 
Border Patrol. It could be handheld devices. It could be land-
based radar. It could be air assets, including tethered 
dirigibles, which we used to great effect in Afghanistan.
    In one area of the budget I was very concerned about, I 
think they zeroed out funding. They may have zeroed out funding 
for aviation assets between the ports of entry.
    And I want us to come back. There may be a mistake in 
there, but I want us to come back to the idea that we have 
these drones and we do not have the resources to fly them.
    We have these drones, and we do not have the resources to 
actually put in the vehicle and dismount exploitation radar 
(VADER) systems that are highly sophisticated, very effective 
radar systems that enable the drone at 25,000 feet to see at 
night, to see during the bad weather, to see in dust storms--
you name it.
    Instead of doing that, we are sending out these drones with 
people with binoculars.
    I spent some time in the Navy P3 aircraft, doing search and 
rescue out in the ocean and looking for people in lifeboats. 
And doing that from 25,000 feet in a drone or 500 feet in a 
Navy P3 aircraft--that does not work.
    And I would just ask us to consider as we go forward, how 
do we invest money into force multipliers to better enable the 
people between the ports of entry to do their jobs? Dr. Coburn.
    Senator Coburn. Can you talk a little bit about your desire 
to consolidate the grant programs, one?
    And, No. 2, one of the things that concerns me about your 
proposal is the fact that you take a stakeholder contribution 
requirement away from that, which I think is a very good 
inhibitor in eliminating wasteful requests for grants, and just 
talk about--this is the second year we have heard this 
proposal.
    As you know, I am highly in favor of consolidating this, 
just through the efficiency and effectiveness that would occur 
because of it. But, could you talk a little bit about that so 
that my colleagues can hear that and, also, discuss 
specifically why you would take the participation requirement 
and eliminate that as you consolidate those programs?
    Secretary Johnson. I am sure everybody here is familiar 
with the booklet--maybe Congress does not participate in this--
the Combined Federal Campaign (CFC), the book that gets passed 
around and the listing of all the potential grant recipients.
    And one of the things that is always listed is the 
percentage of your dollar that is going to go to overhead 
versus going to the ultimate intended beneficiary. In some 
charitable organizations, it is 3 percent. Sometimes the 
overhead is higher; it is 10 percent.
    The theory behind the grant consolidation request is that 
it is our judgment that if grants are consolidated that makes 
for more efficient oversight at the Federal level and at the 
State level, at both levels, on the level of the grantor and 
the level of the grantee, therefore, leaving more of that 
dollar for the intended beneficiaries.
    It also reflects our judgment that if the grants are 
consolidated it enhances oversight--how the money is used.
    I know Federal Emergency Management Agency (FEMA) 
Administrator Craig Fugate, for example, whose judgment I have 
a lot of respect for, is a big believer in this, and he is the 
one that manages these programs on behalf of the Federal 
Government.
    So I believe that he is correct, that this is a good idea. 
There are significant concerns about the proposal, but we in 
the Administration think it is a good idea.
    I think when you talk about grants we need--grants are 
becoming more and more important from where I sit, from my 
counterterrorism/natural disaster preparedness seat. Because of 
the nature of how the terrorist threat is evolving, I think 
grants to State and local governments are important.
    In terms of the risk factors and the various stakeholder 
requirements, we are where we are. I am a relative newcomer in 
how I evaluate the risk factors and the criteria that we use, 
Senator, and it is something that in future years, in 
connection with next year's request, and the year after that, I 
intend to take a close look at to make sure we have it exactly 
right. There is probably always room for improvement.
    Senator Coburn. Was the elimination of the cost-share 
requirement put in there to try to balance the loss of 
parochial benefit to members of Congress because what we have 
done is legislated that a certain percentage has to go to 
everybody, whether there is a risk there or not, or even 
whether there is a need there or not?
    I mean, is that the thinking behind this so that those that 
get it--so here is the balancing act between a parochial 
concern that 25 percent of all this money has to go out on a 
population basis, and we are going to eliminate cost-share so 
that we can offset that?
    Secretary Johnson. I would like to take that question for 
the record because I suspect I could give a better informed 
answer to that if I took it for the record, if you do not mind, 
sir.\1\
---------------------------------------------------------------------------
    \1\ The response to Senator Coburn's question appears in the 
Appendix on page 79.
---------------------------------------------------------------------------
    Senator Coburn. Yes.
    Let's talk about TSA for a minute, if we could. Precheck is 
going to collect about $14 million in fees for Precheck this 
year. It will continue to grow.
    I think you estimate about $100 million in savings in terms 
of costs associated with Precheck, which should grow as well.
    So why is it that the budget is needing to increase in TSA 
if, in fact, your fees are going up already and your costs are 
going down? Why is it that we need to have a fee increase?
    Secretary Johnson. I suspect it is to fund other aspects of 
TSA's operations, and I suspect the answer is just an answer of 
basic math.
    I know where we would like to be in terms of TSA Precheck. 
And you are correct that the more people who enlist, the fees 
go up; the costs ought to go down.
    But, in terms of the overall request, I think the answer is 
basic math. I do not have the answer sitting here for you.
    Senator Coburn. It loosens up money for other areas, 
correct?
    Secretary Johnson. Plainly, yes.
    Senator Coburn. OK. All right.
    I do want to have a discussion with you, but we cannot have 
it in an open setting, on Federal Air Marshal Service (FAMS), 
and so I will have a discussion with you at an appropriate time 
on that, on some criticism on the budget on that.
    The request for Federal Emergency Management Agency 
preparedness grants last year--I think you are requesting a 
billion dollars in grant money for this year, and $5.7 billion 
right now going back to 2007 has not even been spent, including 
95 percent of the $1.6 billion from last year.
    Secretary Johnson. Yes.
    Senator Coburn. Why don't we just do a timeout for one year 
and get caught up and make sure the grants are going where they 
need to go and that we are managing them right?
    That is 7 years' worth of grant money that has not gone 
out, and we are requesting more grant money. To me, I do not 
understand.
    I understand the need for preparedness grants. I think it 
is more a State responsibility than it is a Federal 
responsibility, essentially, since I have done a ton of 
oversight and seen how this has not been well spent, and I 
think you are aware of a lot of that.
    Why request more preparedness grant money when, in fact, we 
have in excess of almost $6 billion sitting in the pot that has 
not gone out?
    Secretary Johnson. You are correct; it is multiyear money.
    And we have to keep the ball rolling--new challenges, new 
disaster preparedness each year.
    We have a policy of strongly encouraging grantees to spend 
down what we give them. And I have personally been on the phone 
with disaster response officials and local governments to say, 
all right, I am going to give you this extension, but this 
really has to be the last extension, and you have really got to 
spend this down because we need to move on.
    So we have a policy to encourage grantees to spend it down, 
and I am committed to enforcing that and encouraging them to 
spend it.
    Senator Coburn. But that begs the question--No. 1, in the 
long run, is there ever a time in which we get disaster 
preparedness done?
    And No. 2 is if we are having to beg them to spend it down, 
it obviously is not a high priority in their minds or they 
would have spent it down.
    Secretary Johnson. I understand that.
    Senator Coburn. So it says to me we have way too much money 
in the pipeline for what we say we need to do, and we spent 
billions in the past on preparedness, and we are going to ask 
for another billion dollars.
    And my worry is it is not being spent well--I think you and 
I have had discussions about that--or it has been spent on low 
priority that is not risk-based.
    So my thought would be may we take a timeout and not give 
the billion dollars this year and then prioritize for next year 
what are the real needs in the States for preparedness grants 
rather than continue to feed money that does not get well 
spent.
    Secretary Johnson. I have seen enough instances and 
examples of where preparedness grant money has been used very 
effectively, and I believe that we need to continue to fund 
this program to prepare for the unanticipated and for the real 
disasters.
    So I understand that concern. I guess I would hesitate to 
take a complete timeout. I think we need to keep funding this.
    Chairman Carper. OK. Welcome to our colleague, Senator 
Ayotte. You are up next, followed by Senator Johnson, Senator 
McCaskill and Senator McCain.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman and Ranking 
Member.
    I want to thank you, Secretary Johnson, for the important 
position you hold and for your leadership.
    I wanted to followup. Senator Coburn and I have inquired 
about the after-action lessons learned report on the Boston 
Marathon bombings that I know your Department has been 
preparing.
    Secretary Johnson. Yes.
    Senator Ayotte. So I wanted to know what the status was of 
that report. I think all of us are anxious to understand what 
lessons we can learn from the Boston Marathon bombings to 
ensure that those types of events do not happen again, to 
ensure that the right communication is happening among all the 
different agencies.
    So, if you can give me an update on when we may expect 
that, and then, in turn also, I am interested in knowing what 
other reports or investigations are being conducted beyond that 
report, the after-action lessons learned, that we will receive 
to understand that we are conducting a full analysis, which I 
hope we are, of what occurred and what we can ensure that if 
there are lessons to be learned, which I think that there will 
be, that we incorporate those in protecting the homeland.
    Secretary Johnson. In terms of the Boston after-action 
report, we are almost done, and we need to do a little more 
scrubbing, and then we will get it to you in the short term.
    In terms of other reports, particularly those that are due 
to Congress, I have directed my staff to be far more diligent 
in getting these things done in a timely way and in particular 
the reports that we owe Congress. So we are playing catch-up in 
that regard as well.
    But, on the Boston after-action report, I am told we are 
almost done.
    Senator Ayotte. Great. We look forward to receiving it.
    Just to clarify, it is my understanding that in addition to 
the report that you will provide our Committee, that there are 
in fact other reviews going on beyond DHS with regard to the 
Boston bombing. Can you give us any insight just so that we get 
a full picture, so we can understand this may not be the sole 
report, after-action report, so that we can make sure we are 
looking at the full picture?
    Secretary Johnson. OK. I have to take that for the record, 
and I will inquire, Senator.\1\
---------------------------------------------------------------------------
    \1\ The response to Senator Ayotte's question appears in the 
Appendix on page 106.
---------------------------------------------------------------------------
    Senator Ayotte. I really appreciate it. Thank you.
    Secretary Johnson. OK.
    Senator Ayotte. One of the things that I have been troubled 
about is testimony that we have had before the Senate Armed 
Services Committee fairly recently from Director of National 
Intelligence (DNI) Clapper and General Michael Flynn, and the 
testimony has really been about how al-Qaeda is not on the run, 
how we have seen al-Qaeda morphing, metastasizing, that we have 
seen the proliferation of al-Qaeda in Africa and now even your 
own testimony, I believe, that the threat of al-Qaeda in Syria 
actually presents a potential threat to our homeland, including 
the over 7,500 foreign fighters that are now in Syria.
    So I would like you to give us an assessment of how you 
view that threat, how you believe we are addressing that threat 
of increased presence of al-Qaeda and potential new threats to 
our homeland and how, in your position, you think we are 
prepared to meet those threats, to the extent that you can. 
Obviously, some of that you may not be able to discuss in a 
public setting.
    Secretary Johnson. Sure. I believe that through our efforts 
in both the Bush and Obama Administrations, we have put core 
al-Qaeda on the path to strategic defeat. We are not at a point 
of strategic defeat. I think core al-Qaeda is still active, 
largely as an ideological center and leader.
    In my time at the Department of Defense from 2009 to 2012, 
our focus on al-Qaeda affiliates was a large part of our 
counterterrorism effort in the military. And, by that, I mean 
al-Qaeda in the Arabian Peninsula (AQAP), which then and 
probably now was the most active al-Qaeda affiliate in terms of 
attempts of attacks on the homeland. We made some progress 
there, but we have more work to do.
    And the al-Qaeda affiliates are becoming more splintered 
and are probably multiplying in ways that are sometimes hard to 
surmise because there is sometimes sort of a generic 
affiliation to al-Qaeda, without a strict command and control 
affiliation there.
    In my view, some of the seminal attacks that we have seen 
that represent this evolution--the underwear bomber on December 
25, 2009--that was an al-Qaeda affiliate, AQAP.
    Benghazi is an attack of a different nature. In that, you 
have several groups who came on the compound at once, and there 
was no clear leader, no clear command and control of the type 
we had seen before.
    And then the terrorist threat that in many respects most 
concerns me is the domestic one because it is the hardest to 
detect in my view, represented by the Boston Marathon bombing 
last year.
    I think we have to be vigilant on all of these, from my 
homeland security perspective. With the concern about the 
domestic threats, it is particularly important that the Federal 
Government establish solid working relationships with State and 
local law enforcement and first responders, as evidenced by the 
Boston Marathon attack last year.
    And a lot of the preparedness grants, a lot of the grants 
that the Department has issued, went to some of the emergency 
response equipment that was used that day in Boston, which is 
one of the reasons I think our grants are so important.
    But it is an evolving threat, and we have to be vigilant 
against all of it.
    I read the intelligence reports every morning. It is 
probably the most important part of my day. There is a lot of 
noise that you have to sometimes discount, but we have to stay 
vigilant on a number of fronts, Senator.
    Senator Ayotte. Thank you.
    I think we could have a whole hearing, and I am sure we 
will, on this particular issue.
    One followup. So I have it in my State, and I know it is 
not unique to New Hampshire; across the country, we have a 
heroin epidemic right now. And so today in the Armed Services 
Committee, we have the commander of U.S. Southern Command 
(SOUTHCOM) and the commander of U.S. Northern Command 
(NORTHCOM).
    And I wanted to get your assessment of how your agency is 
working with those agencies on the defense level, on, 
obviously, the drug trafficking issues, but also how are we 
coordinating with State and local officials on this epidemic. 
As you know, these drug trafficking networks also support a 
whole array of other criminal activities, including human 
trafficking, including terrorist funding as well.
    So this heroin epidemic--I do not know if you are hearing 
about it, but we are seeing it in my own State, and I think 
that it is unfortunate. It is something that we have to get a 
hold of and better coordination among all the agencies on it.
    Secretary Johnson. I agree with that, and one of the 
virtues of having worked in the Department of Defense for 4 
years is I am very familiar with NORTHCOM/SOUTHCOM leadership. 
I know General Jacoby and General Kelly well. I have already 
had conversations with them about this exact subject.
    A big part of our mission is counternarcotics, and we have 
to attack the networks. I believe that.
    Senator Ayotte. All right. Thank you.
    Chairman Carper. Thank you, Senator Ayotte.
    Next, Senator Johnson, please.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman. Secretary 
Johnson, welcome.
    You mentioned homegrown terrorist threats.
    I was alarmed a couple weeks ago when I was back from 
Wisconsin. I had a constituent come up to me, reporting that it 
was either her cousin or niece was a nurse in a hospital and 
she was reporting multiple times where Arab women were coming 
into Florida, having babies, paying cash, getting the birth 
certificate and going home. Is that something you have heard 
about?
    It sounded like an alarming trend. It was not just a one-
off.
    Secretary Johnson. Not that specific scenario, no.
    Senator Johnson. OK. I would like you to followup on that 
and just see if that is something more widespread. I would like 
to go back to what Senator Coburn was talking about in terms of 
spend-down.
    My wife, when she first became an Internal Revenue Service 
(IRS) agent, she learned two government terms right off the 
bat--``good enough for government work'' and then ``use it or 
lose it.'' Can you describe the spend-down policy and whatever 
happened to ``use it or lose it?''
    Secretary Johnson. We have a 2-year spend-down policy. We 
can grant extensions. And I intend to be pretty vigilant in 
enforcing that.
    There are various reasons why a grantee may not be able to 
spend it down within the allotted time. And so on the one 
occasion where I granted an extension, I personally got on the 
phone to the emergency response official and the grantee and 
said, you have really got to--like 85-90 percent of it had been 
spent already, and there was a little bit left.
    And I wanted to personally emphasize to the recipient that 
you have really got to spend this down. Go tell the mayor you 
have heard that directly from the Secretary of Homeland 
Security.
    Senator Johnson. By spent, is that defined as obligated, or 
is that like money actually out the door? Can they commit to 
multiple year purchasing projects, that type of thing? Is that 
considered spent?
    Secretary Johnson. That is a good question. Let me get back 
to you on that. That is a good question.
    Senator Johnson. Can you enlighten me about what happened 
with Malaysia Flight 370 in terms of the passport issue--the 
stolen passports not being detected right away? Can you 
describe what gap in the system that represents, and can you 
tell us anything about that?
    Secretary Johnson. Well, what I can tell you is that--
because I asked the same question.
    What I can tell you is that at least with the U.S. 
Government we do a pretty good job of checking the Interpol 
database for stolen passports. And the assessment I received in 
terms of U.S. domestic flights and in terms of flights out of 
this country and into this country, we do a pretty good job of 
detecting and stopping anyone who is trying to fly on a stolen 
passport.
    Senator Johnson. Can you describe pretty good? I mean, is 
it instantaneous?
    The passport is scanned. It is a unique number, I would 
think. Is that immediately compared to a database?
    Secretary Johnson. Yes, that is my understanding.
    Senator Johnson. So it should actually be instantaneous, 
correct?
    I mean, that would have been--in the age of computers, that 
would have been my assumption, that airport security had gotten 
to the point where you are scanning a passport and there is--I 
do not know how many millions or billions of passports there 
are issued, but still, within computer technology, I would 
think it would be instantaneous. So, for us, it is 
instantaneous?
    Secretary Johnson. That is my understanding, Senator. And 
other nations do not quite have the same capability, and we 
need to focus on this more globally.
    Senator Johnson. Now there are direct flights from Malaysia 
into the United States, correct?
    Secretary Johnson. Yes. I cannot say I have flown one.
    Senator Johnson. So would it be your understanding that the 
check-in point for flights to China would be handled 
differently than check-in points directly to the United States?
    Secretary Johnson. It is probably a different airline.
    I am not sure of the answer to that, but I am told that 
flights from last points of departure airports to the United 
States--we are pretty good at picking up stolen passports.
    Senator Coburn. We have TSA in most of those major airports 
on direct flights here, and people on the ground.
    Senator Johnson. Good. Thank you, Senator.
    Senator Johnson. One of my ongoing questions in terms of 
just the creation of the Department of Homeland Security is 
cobbling all these agencies together.
    Again, when you consolidate that in business, you take a 
look for efficiencies and where there is duplication of 
departments and efforts. I am not so sure that has been the 
case with Homeland Security. You say you just completed an 
audit. Is that something you are looking at?
    Can you render any opinion in terms of the efficiencies of 
the overhead of all these agencies? Are we going to be gaining 
efficiencies? Have we gained efficiencies? Is that one of your 
management priorities?
    Secretary Johnson. Yes, definitely. First of all, when we 
talk about merging all these entities together in 2003, you 
have to remember where they were before. We had what are now 
DHS components spread across the Department of Agriculture, 
Department of Energy, Department of Treasury, Department of 
Justice (DOJ), including departments that did not have homeland 
security law enforcement as their core mission.
    I have already seen the symmetry and the advantage of 
having aviation security, port security, maritime security, 
border security, all at one conference table, when I focus on 
the counterterrorism threat--the terrorist threat to this 
country. So I have seen that symmetry.
    Now, out of that merger, are there inefficiencies, 
duplications of headquarters, effort? I would be doing you a 
disservice if I tried to make the case that there is not, and I 
suspect you would wonder about my judgment.
    Senator Johnson. I just want to make sure you are looking 
at that and trying to----
    Secretary Johnson. Yes, we are.
    One of the things we are doing is developing a budget 
process that starts at the headquarters level with the 
essential mission, the overall mission--counterterrorism, 
border security. You start from there. You develop your 
resource requirements, and then you inform the components of 
what you expect to see from them in terms of a budget request 
rather than just a straight stovepipe. So that is a process we 
are building to get at this exact question.
    Senator Johnson. OK, two-part question because I am running 
out of time.
    Both Senator McCaskill and I have been certainly 
investigating the problems in the IG's office. We have some 
resignations. We have a new IG. I want to make sure that is a 
top priority, to take a look at that. I think that is an office 
that has really got low morale and is incredibly important from 
that standpoint. You also mentioned we have confirmed a number 
of positions.
    So, two-part question--talk to me about your dedication and 
what you are going to be doing in terms of the IG's office, and 
then second, how many other key positions do you need to fill?
    Secretary Johnson. Well, IG's office, I am very pleased 
that we have new leadership there. I think that is going to go 
a long way toward boosting morale. My model for the 
relationship a department leadership should have with its IG is 
from my DOD experience, which is the IG has to have a good deal 
of autonomy and independence. The IG has a level of oversight 
directly from Congress.
    I know and I believe that the Secretary, for example, 
cannot direct the IG to conduct an investigation. I think that 
that is something that should be a matter of discretion for the 
IG. I should not direct the IG, go interview these 20 people 
and report back to me. I do not think that is the proper 
relationship.
    I do, on the other hand, want to be mindful of the IG's 
overall priorities, overall strategy. There might be instances 
where I want the IG to go conduct an audit to look for 
inefficiencies and the like. So I think we have some work to do 
there, and I intend to work on improving the function of that 
office and its reputation.
    In terms of the senior leadership positions, we have three 
awaiting Senate confirmation right now. We have somewhere 
around five or six more Senate-confirmed positions that we need 
to fill. I spend at least a part of every single day, 
recruiting, working on getting these people through the vetting 
pipeline. I have at least one candidate for every single 
vacancy right now that I am working on.
    Chairman Carper. Before I recognize Senator McCaskill, a 
former State auditor, I would just note that I think there are 
some symmetries here, or parallels, between the role that the 
State auditor played in my State and the role that the IG plays 
in the various departments.
    We look at the State auditor, who was a Republican in my 
State when I was a Democratic Governor, we did not have an 
adversarial relationship. We felt the role that the auditors 
play is an important role, and we looked to them to help us 
figure out how to do our jobs better.
    I think John Roth is a very impressive guy. Dr. Coburn and 
I are very impressed with him. The Committee is very impressed 
with him. I think he will do us proud.
    But I would urge you to just establish right from the start 
that kind of cooperative relationship.
    And, in response to Senator Johnson's questions. I am very 
proud of the work we have done on this Committee in expediting 
the consideration of the President's nominees to fill the many 
vacancies in DHS. We are going to try to do a markup probably 
off the floor today and have our first vote on Reginald 
Brothers for the Under Secretary for Science and Technology.
    We have a vacancy in Immigration and Customs Enforcement. 
That is a big one. We have no nominee, and we need a nominee. 
That is a big vacancy. We have DHS Under Secretary for 
Management. We have no nominee. We have DHS Chief Financial 
Officer. We have no nominees.
    So those are three instances where the Administration needs 
to get their act together and get us some nominees. We are 
getting to be pretty good at moving them along if they are good 
nominees.
    General Francis Taylor has cleared the Committee. He has 
been through our Committee. He still needs to be cleared by the 
Inteligence Committee. He is good to go, I think, for the 
floor.
    And Leon Rodriguez has been before the Judiciary Committee 
for 3 months. He has not had a nomination hearing. I would urge 
you to reach out to the Chairman and Ranking Member of the 
Judiciary Committee. And Tom and I, we, should do the same and 
urge them to get going.
    All right. Thanks. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you. Welcome.
    I am concerned about the decrease in the budget for 
acquisition personnel. You are cutting 18 full-time employees, 
all of which will come from the Office of the Chief Procurement 
Officer, about a $729,000 cut.
    The number of contracting officers has decreased by 
approximately 45 full time equivalents (FTEs) since you began 
working at DHS 3 years ago. At the same time, S&T has requested 
and gotten a million dollar increase in its management and 
administrative account.
    In my questions today, I want to emphasize that I think you 
have it backward. I think that it is worrisome to me that we 
think we can oversee contracts. And you and I have had 
discussions about the level of contracting that occurs at DHS. 
It is worrisome to me that we continue to increase the number, 
size and complexity of contracts, but the contracting workforce 
continues to shrink. That is a recipe for disaster. It is a 
dangerous path.
    Does your chief procurement officer get any guidance on 
what the proper workload for a given contracting officer is in 
terms of number of contracts they have to oversee, dollar 
amount and complexity of the contract they are supposed to be 
managing; do you know, Secretary?
    Secretary Johnson. That specific question I would like to 
take for the record.
    I understand the phenomenon from my Department of Defense 
experience of larger, more complex contracts and a smaller 
workforce to try to manage it, and I agree that that is a 
problem that should be addressed. I want to work with this 
Committee to make sure we have that balance exactly right.
    With regard to the specific funding request in this year's 
budget, I want to work with you to make sure we get that 
exactly right.
    Senator McCaskill. The decision was recently made in May of 
last year that fundamental documentation requirements were 
waived for 42 of DHS's most expensive acquisition programs. 
These are the documents that allow us to do cost-benefit 
analysis in a way that is accurate. It allows us to track what 
the original scope of the contract was supposed to be.
    The excuse that has been made is that these programs are 
all in the sustainment phase; so why go back and retroactively 
create these foundational documents? Well, that brings up 
another question. How in the heck did they get to the 
sustainment phase without the foundational documents? And maybe 
it is because we keep cannibalizing the acquisition workforce.
    I think I would encourage you to revisit that decision 
about foundational documents. I think it is another recipe for 
disaster.
    Now let's compare and contrast S&T. I think you know that 
there are issues there. Nearly all of S&T's work is based on 
technology foraging--taking things other Federal departments or 
the private sector have made and tweaking them a little bit to 
make them applicable to DHS.
    What is even more concerning, which gets back to my concern 
about lack of cohesion at DHS, is S&T is supposed to be 
managing all of DHS's research and development (R&D) work. That 
is just not true.
    GAO found that other components continue to do as much as 
$255 million of R&D activities on their own. And if you ask the 
National Labs, and we have, they will tell you they continue to 
get a lot of work from other DHS components.
    Not too long ago, there was an S&T project where we had 
spent a lot of money and then all of a sudden they abandoned 
it, and the reason they abandoned it is because they had to 
acknowledge that the commercial sector had outpaced them, that 
what they were looking at had already been done in the private 
sector.
    Do you believe that the scope of responsibilities given to 
S&T is too broad, and do we really need to be spending a 
billion dollars for a standalone directorate doing just 
technology foraging?
    Secretary Johnson. Well, I think it is important that we 
have an S&T function to do additional research in the area, for 
example, of cybersecurity, and there is a request in the S&T 
part of the budget for, I think, $70-72 million. Insofar as 
cybersecurity is important, I think that is a national 
priority.
    In terms of R&D, many members of Congress, including 
Members of this Committee have asked me to look at this exact 
question, and I have committed to undertake to make sure that 
we identify any inefficiencies in the way we conduct R&D across 
the entire Department of Homeland Security, to make sure that 
there are no duplications and having different components 
undertake R&D or request R&D does not lead to inefficiency. So 
that is one of my commitments to look at, Senator.
    Senator McCaskill. Well, that is terrific, and I will be 
monitoring and following up on that. I think it is really 
important.
    I do not know why they need another million dollars in 
management and administration at S&T. I do not think they have 
done particularly a stellar job up to date. And getting another 
million dollars while at the same time you are taking away 18 
FTEs in acquisition for less than that price--I would love to 
see those flipped. I would love management and administration 
in S&T to stay flat and you restore those funds, and I will be 
talking to appropriators about that--restore those funds on 
acquisition personnel. It is not a good idea.
    Why do we need two separate stockpiles of medical 
countermeasures? Why do we need a separate stockpile at DHS 
from the national stockpile?
    Secretary Johnson. Let me get back to you on that, 
Senator.\1\
---------------------------------------------------------------------------
    \1\ The response to Senator McCaskill's question appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    Senator McCaskill. OK.
    Secretary Johnson. Thank you.
    Senator McCaskill. And then, finally, the senior executive 
service (SES) workforce. I went back and did some research on--
I was not here, but when the senior executive staff workforce 
was created, it sounded really good.
    It sounded like what we were going to do is develop 
executive-level leaders, and they were going to move through 
the government, and it was going to allow cross-pollination of 
excellent executives as it relates to government. That cross-
pollination would be very important because the Federal 
Government is a large endeavor and having some kind of rotating 
superior executives that could help with government management 
issues sounded like a great idea.
    Well, that is not what happened. What has happened is these 
folks have burrowed in at the agencies they work, and they 
never go anywhere. The vast majority of the SES personnel, and 
we are up to 7,000 of them, have stayed in the same position 
and in the same organization for the entire SES portion of 
their career. Do you know what percentage of the SES employees 
at DHS have worked for more than one DHS component in their 
career?
    Secretary Johnson. I do not.
    I can tell you from my own personal experience working with 
SES-level civilians that they bring real value in terms of 
their level of sophistication and talent and their knowledge 
base in a particular area, like fiscal law, acquisition, 
environmental issues. I have worked with SESers who I am sure 
were the foremost experts in their particular area of what they 
do, and I was very pleased to receive their advice.
    I understand there is an overall goal to move people around 
within departments, but I think there is also value in having 
an SES talent pool that is devoted to a particular----
    Senator McCaskill. That knows the subject matter.
    Secretary Johnson. That knows the subject matter.
    Senator McCaskill. I agree with you.
    They are highly compensated, and in many agencies of the 
government they get automatic bonuses no matter what. No matter 
if they have had a good year or a bad year, and many times 
those bonuses are five figures.
    So I just would like you to take a look at whether or not 
we should go back and acknowledge that the original goal of 
this was a wrong goal and we want to burrow in and get 
expertise and look at it from a departmentwide situation 
because you probably have a huge number of SESes at DHS.
    Secretary Johnson. I am sure we do.
    Senator McCaskill. OK. Thank you very much, Secretary. 
Thank you, Mr. Chairman.
    Chairman Carper. Senator McCaskill, thanks. Thanks so much 
for the questions. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you. Thank you, Mr. Secretary, for 
appearing before us.
    I had not planned on mentioning it, but your response 
concerning al-Qaeda is, of course, one of the sophistry that 
``core al-Qaeda'' has been defeated--that could be, but let me 
just remind you in the second battle of Fallujah we lost 96 
soldiers and Marines, 600 wounded, the bloodiest battle of the 
War in Iraq, and now the black flags of al-Qaeda fly over the 
city of Fallujah.
    Now, whether they are core al-Qaeda or not, it is a fact 
that the Iraq-Syrian border has become a base for al-Qaeda 
moving into Syria. They cannot be denied. And, when we look at 
``affiliated al-Qaeda'' throughout North Africa, throughout the 
Middle East, on the increase, and we still stick to this 
language--well, we have defeated core al-Qaeda--who cares? Al-
Qaeda is on the move. Al-Qaeda is spreading.
    I travel to the region all the time. Every single one of 
those leaders in the Middle East will tell you that the threat 
of al-Qaeda is increasing, not decreasing. And it grows a 
little frustrating--well, we have defeated core al-Qaeda. What 
is core al-Qaeda? Is that because they live on the Pakistan-
Afghanistan border?
    So I wish that you would look at exactly what al-Qaeda is 
doing. Whether they are core or affiliated, every expert that I 
know of says that they are on the rise, and therefore, sooner 
or later, pose a threat to the United States of America, which 
brings us to your responsibilities. So it just grows wearisome.
    Mr. Secretary, I just came from a hearing where General 
Kelly and General Jacoby, commanders of NORTHCOM and SOUTHCOM, 
and I discussed with them a couple items that are--and I know 
you work very closely with them.
    In South Texas now, 82 percent of those who are apprehended 
crossing our border are other-than-Mexican (OTM), and I asked 
both the witnesses--that is a very significant change.
    And I asked both the generals of SOUTHCOM and NORTHCOM, 
doesn't that mean that sooner or later--although a lot of these 
new other-than-Mexican obviously come from Central America, 
where the economic conditions are terrible, there is still a 
large number of people from all over the world that are landing 
in Central America, being in contact with the human smugglers, 
who are also drug smugglers.
    Isn't it just a matter of time before someone who is not 
coming for a job but wants to do something bad to the United 
States of America would find it a likely way to get to the 
United States of America?
    Secretary Johnson. Senator, as you and I have discussed, I, 
too, am very concerned about third-country nationals who are 
coming into this country through South Texas.
    That 82 percent number that you quote and cite is 
absolutely accurate, and I personally have observed that 
phenomenon in our detention center in South Texas. We are 
talking about, on the particular day I visited, 30 different 
nationalities from across the globe coming through a specific 
path into South Texas. Most of them are from smuggling 
organizations.
    And I believe that it is a Homeland Security imperative 
that we address that phenomenon. I agree with you, sir.
    Senator McCain. I thank you.
    And, by the way, I would like to express my appreciation 
for the abundance of information that you provided me and other 
Members of the Committee and staff concerning what we need to 
do to establish an environment on the border that comports with 
the requirements of the comprehensive immigration bill that we 
passed through the Senate.
    It is my understanding that the effectiveness rate varies, 
obviously, in each of the nine sectors. Does this budget move 
us toward the requirements of the bill that we passed through 
the Senate, of 90 percent effectiveness and 100 percent 
situational awareness?
    Secretary Johnson. I believe that with the resources that 
have been requested in personnel and technology it moves us in 
the right direction.
    I also believe that the comprehensive immigration reform 
bill passed by the Senate would give us much more resources to 
get toward that goal, and the experts that I talk to have told 
me that if we got comprehensive immigration reform along the 
lines of the Senate bill we could probably get to what most 
people would consider border security, yes, sir.
    Senator McCain. And, without that, it would take a longer 
period of time, would you agree?
    Secretary Johnson. That is absolutely correct.
    Senator McCain. I hope that some of my colleagues would 
listen to what you just said.
    Also, in the hearing that I just left, General Kelly, 
Commander of SOUTHCOM, said that he is watching drugs being 
transported into the United States. He says, I am watching, but 
I am unable to apprehend because of lack of resources.
    We also had a chart that showed a reduction in flight 
hours, in surveillance, et cetera.
    So he made a strong argument that because of sequestration 
and other cuts--sequestration is one of the factors--that we 
are really unable to even intercept drugs that we know are 
being transported, and that, I think, is rather disturbing.
    One, I would like your comments on that. And, second of 
all, I am not sure if that is the situation as he describes it, 
why we see the single largest decrease in the budget request be 
in the Coast Guard, which obviously is a major element of drug 
interdiction capabilities.
    Secretary Johnson. First, on our anti-narcotics efforts, 
the budget reflects some hard choices, absolutely.
    We have better technology when it comes to aerial 
surveillance. So some people have noted the decrease in flight 
hours. That is because we have better technology in terms of 
surveillance.
    I believe that the key here is to go after the cartels, go 
after the networks that engage in smuggling. Almost every 
narcotic shipment, almost every individual who comes into this 
country illegally, is the result of a smuggling organization. 
They do not freelance. There is no freelancing going on.
    So I think we need to attack the networks. I have spoken to 
General Jacoby and General Kelly on this. I think, they agree 
with me on that.
    I am concerned about the phenomenon that General Kelly 
described to you. I have talked to him about that myself. I am 
as concerned as he is.
    In terms of Coast Guard recapitalization, and again, this 
reflects hard choices--but I am dedicated to recapitalizing the 
fleet in all three classes of the cutters, where we are trying 
to make that effort--the National Security Cutter, the Offshore 
Patrol Cutter and the Fast Response Cutter.
    Given the realities of the fiscal situation we were in, we 
did not ask for as much as we would have liked to get to where 
we want to be as fast as we would like to be, but we are 
maintaining each of the three lines of effort and trying to 
move forward on all three fronts.
    Senator McCain. Thank you, Mr. Chairman. I thank you for 
the time.
    I would just add to it; I understand we certainly 
technologically made great advances that have been experimented 
and proven in conflicts overseas, but if the commander is 
saying that he is watching, then I think we ought to at least 
give him the capability,.
    And, by the way, I agree with your premise that you have to 
go to the source, it is the cartels and all that, and how 
complicated that situation is. But, if he is watching drugs 
being transported and does not have the capability to 
intercept, I think at least we ought to try to make sure that 
that is not the case. And I know you agree with that. I thank 
you, Mr. Secretary.
    Chairman Carper. Senator McCain, thanks for those 
questions.
    Let me just mention something, if I could.
    I was in El Salvador, as I said earlier, a couple weeks 
ago, and the Ambassador there and some of her people took me to 
an air base not far from San Salvador. I was not sure why they 
were taking me there, but I said, well, let's see what they 
have to show me--a Navy P3 squadron.
    Senator McCain. I think one of the most problem areas--and 
the Secretary might want to respond--is Honduras, where there 
has really been a takeover of that country. It is really a 
lawless country, and that is one of the reasons why we are 
seeing this increase in OTMs, because of the horrific economic 
conditions that exist in those Central American countries. And 
I am glad you are going.
    Do you have a comment on that, Mr. Secretary?
    Secretary Johnson. I am going back to Mexico next week. I 
have had three conversations now with my Mexican counterpart. 
Next week will be the fourth, on a variety of subjects, and 
this will be one of them.
    I believe that we need to address the situation of third-
country nationals coming into this country as a matter of our 
border security, our homeland security. I am concerned, like 
you are, about this situation, and I also think that the 
Mexicans are concerned as well. We have a shared interest in 
addressing this situation.
    Senator McCain. And the Southern Border of Mexico is an 
issue you have been discussing with them?
    Secretary Johnson. Their border security is an issue that I 
have been discussing with them; that is absolutely correct.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Carper. You bet.
    One of the reasons why the net migration of Mexicans coming 
into the United States has pretty much leveled out--my 
understanding is it is actually a somewhat greater number of 
folks going back into Mexico from the United States than 
actually coming into America.
    One of the reasons I am told this is happening is because 
the economy is stronger in Mexico. There is an emergence of a 
middle class. And, while they still have problems with narco 
drug lords and so forth, we are really the root cause of that 
because we buy the drugs and send weapons down there. So we are 
a big part of that problem.
    But there is a strong, vibrant economy and I think more 
effective governance in Mexico.
    Secretary Johnson. Can I add one more thing, Mr. Chairman?
    Chairman Carper. Please.
    Secretary Johnson. Senator McCain, I was in Arizona a 
couple weeks ago to talk about the border situation there. I 
met with a number of your constituents. I asked to meet with 
the ranchers. I do not mean to dime out my staff, but my staff 
said, you do not do that; it might get kind of contentious. And 
I said, no, I need to hear what they have to say. And I have to 
say that they were wonderful, courteous people. We had a very 
productive conversation. They asked me to come back, and I 
agreed to come back again.
    Senator McCain. I am very grateful you met with them. It 
meant a lot to them, and I am sure you understand some of their 
concerns. Many of them still have people crossing their 
property at night. And I am very pleased that they were 
courteous to you. I cannot tell you how much they appreciated 
the fact that you met with them. I thank you for that.
    Chairman Carper. Yes, when I was down there last year, 
Senator McCain was good enough to take me to meet with a lot of 
the same people, and that was my experience as well.
    I want to come back to we are pretty good at addressing 
symptoms of problems. We have a lot of people coming across the 
border. We put more Border Patrol there. We have a lot of 
people coming across our borders illegally. We try to go after 
the employers to say, if you hire illegals here, we will fine 
you; we will put you in jail if we need to do that.
    We address these symptoms of the problems.
    The reason why I am convinced that so many people come up 
from El Salvador, Honduras, and Guatemala is because some of 
them are living lives where it is a hell hole.
    And there are wonderful people there, but there is so much 
crime. People are fearful to go out at night. The opportunity 
for work, to actually make a living, is diminished.
    If all we do is strengthen our borders, or even strengthen 
the borders between Mexico and those countries, that will not 
solve the problem. It has to be a more comprehensive approach.
    And I would just ask if you have any thoughts along these 
lines. I think we cannot just focus on symptoms of problems. We 
have to focus on underlying causes as well. But, any thoughts 
you have on that?
    Secretary Johnson. I agree with that, and economic pushes 
and pulls have a lot to do with it. We saw a decrease in 
apprehensions at our border over the last 10 years or so. I 
suspect some of that has to do with our economy.
    And we have seen a more recent modest spike upward again in 
border apprehensions, and I suspect that too has something to 
do with our economy as our economy improves. That is a good 
news story. The Mexican economy is a good news story as well 
for them and for us.
    But these are contributing factors to overall migration, 
legal and illegal.
    Chairman Carper. We are told that the adoption of a 
comprehensive immigration reform bill, getting it done and 
actually saying to the folks south of us, if you are thinking 
of coming in, forget it because you are not going to be able to 
obtain any kind of legal status if you come across after a 
certain date.
    Correct me if I am wrong, Dr. Coburn, but I think in the 
legislation that we passed on immigration reform last fall, 
that the cutoff was the beginning or near the beginning of last 
year.
    So we are trying to send a message to say, if you are in El 
Salvador, Honduras, Guatemala, Mexico or any of these places, 
and you are thinking about coming north, forget it because if 
you do the door is already closed. You are not going to be able 
to get on the road or a road map to a legal status.
    I want to come back to force multipliers again and the 
areas between the ports of entry along particularly Texas and 
the Arizona portions of the Mexican border. You have had a lot 
of experience in your old job with drones.
    I mentioned earlier we have drone assets down there. My 
recollection is we had about four of them, I think. On any 
given day, a couple of them could fly. They could fly maybe 16 
hours a day, 5 days a week. And there were days when they could 
not get into the airspace, the controlled airspace, in Arizona 
because it was used by military aircraft.
    We see in the Administration's budget, as I recall, not an 
increase in resources for flight hours for the drones, but I am 
not sure we see an increase in the kind of sophisticated 
detection systems, surveillance systems called VADER, that are 
available, I think, off the shelf.
    With the drones we have there, my recollection is we have 
one that is actually in a drone, and it is borrowed, I think, 
from DOD. That just seems foolish to me. Your thoughts, please.
    Secretary Johnson. The decrease in requested flight hours 
reflects a judgment that because of improved technology we can 
do the job more efficiently with fewer flight hours. I think we 
are going from 100,000 to about 73,000. That reflects a 
judgment that with the technology we have, we can do the job 
more efficiently.
    I believe that aerial surveillance is very important to 
border security, coupled with adequate privacy protections. And 
one of the things I have discussed with both you and Senator 
Coburn, and one of the things that I am working on with our 
staff, is improving and sharpening the privacy guidelines we 
have with regard to use of aerial surveillance. But I agree 
that aerial surveillance is very important.
    And added surveillance, new surveillance technology, is 
something that people on the border, our border patrol agents, 
have told me is particularly important.
    Chairman Carper. All right. I do not pretend to be an 
expert on these things, but I can tell you a drone flown with 
somebody with binoculars as opposed to a drone that has VADER 
and a VADER operator with it is a whole different ball game.
    And the other thing I would say is when we were in South 
Texas we were with a bunch of your people there in the green 
uniforms, and they said to us--I think they had about 10 
different helicopters that were available to them to use.
    And they told us if they would send this one particular 
helicopter, they were happy to have it because it was reliable 
and had the equipment on it that was needed and helpful. They 
were going to send in the other nine. We just said, basically, 
keep it.
    And we got a taste of that ourselves when we were going to 
go for a helicopter tour of that part of the border, and our 
helicopter, before it even left the ground, had to be grounded, 
and we ended up scurrying to get onto another helicopter.
    I would just urge you to take a look at that. The other 
thing I would urge you to take a look at is the tethered 
aerostats, the dirigibles. We have used them to great effect in 
Afghanistan, I think as you know, in Kabul and other places. 
And they do not chew up any flight hours. They get up in the 
air, way up in the air. They can be up there for a long period 
of time.
    And, if we are interested in trying to do a better job of 
understanding how many people are trying to get across our 
borders, how many turn back before they get to the borders, how 
many are stopped and apprehended at the borders, and try to 
figure out how to get to a 90 percent effectiveness rate, the 
air assets can actually be very helpful in enabling us to 
better estimate when we have reached those goals.
    Let me yield to Dr. Coburn, and then I want to come back 
and talk to you about cybersecurity and the funding that is 
requested to enable you guys to do the followup on the 
framework that has been adopted. Thank you.
    Senator Coburn. We continue to see reports of tunneling 
across the Southern California border discovered--and most of 
it is for drug trafficking rather than human trafficking.
    For years, I have sent information to Homeland Security and 
gotten nothing back on the use of the technology that is 
available in the energy industry. There is no reason to allow 
one tunnel to come into this country because we have both the 
sonar and seismic capability in the energy exploration industry 
to identify any tunnel that comes across that border.
    So what that would mean is once a week you sweep across the 
Southern Border with technology, and you identify every tunnel. 
I mean, it is not hard, and yet, we still do not see any of 
that technology being applied--because you can stop it all. And 
it is not hard. It is hard in rough terrain, but it is not hard 
in the terrain in Southern California.
    So I just have that one for a note for you to take.
    In your response yesterday for the appropriators, you were 
asked about the EB-5 program. Your statement was EB-5 is a 
worthwhile program for job creation, but DHS has to be mindful 
of security concerns.
    I do not disagree with the second part of that. Where is 
the basis in fact for the metrics to know that it is an 
effective program?
    Secretary Johnson. My understanding is that it has 
contributed to job creation in this country. I believe there is 
data to support that, which I am happy to provide, but--I do 
not talk about the EB-5 program, Senator, unless I talk about 
the other half of my answer.
    Senator Coburn. I understand that, but the point I am 
trying to make is we have been trying for 2 years to find any 
metrics to evaluate that program and nobody can give them to 
us. So, if you can supply that, I would very happily receive 
it.
    Secretary Johnson. OK.
    Senator Coburn. I would note that Canada used to have a 
program similar to that and disbanded it because the economic 
benefits versus security risks did not fly.
    Secretary Johnson. Well, that is a balance that I think we 
continually need to evaluate.
    Senator Coburn. Well, if we cannot see the top part of the 
program in real time in terms of job creation, it is worrisome.
    Secretary Johnson. I will not argue with that.
    Senator Coburn. OK. Let me just get to my other questions 
here for a second.
    The President's budget includes a separate fully paid for 
$56 billion program called the Opportunity, Growth and Security 
Initiative (OGSI). FEMA has included the OGSI in their budget 
request where it would support $400 million in additional pre-
disaster grants and $300 million for the consolidated national 
grant program.
    What is the effect of the OGSI on the current pre-disaster 
mitigation program? What is the plan?
    Secretary Johnson. Well, you are correct that we are 
requesting that part of the Disaster Relief Fund (DRF) be 
funded by the Opportunity, Growth and Security Initiative.
    I think there, again, the way this is structured reflects 
hard choices. Consistent with the bipartisan budget act, there 
is a top line that we have to adhere to. And so we went 
through, and we selected the 500 or 700 or so highest 
priorities of the Department to stay within that top line. And 
then there were others that we also regard as important that we 
highlight for you, and we say if we are able to close certain 
loopholes, bring certain efficiencies to the budget, we can 
fund these things, too.
    So what you see is the end result of that.
    Senator Coburn. I have the same high regard for 
Administrator Fugate that you do.
    We have this problem called the per capita damage 
indicator, which in effect allows small States like mine to 
receive, relative to large States, disaster monies at a much 
lower level of damage as compared to the same thing in the 
larger States. And it is my feeling that we have an imbalance 
on how we treat the States on disasters.
    Any thoughts on how we approach that and make that a fairer 
process?
    I think Oklahoma had 35--maybe it was 25--last year, and it 
is because we only have 4 million people, whereas a State that 
had exactly the same damages, the same incident, would not 
qualify. To me that seems inherently unfair to the taxpayers of 
this country, that we are helping the smaller population States 
and not helping those that are larger.
    Secretary Johnson. First of all, I never regarded Oklahoma 
as a small State.
    Senator Coburn. Well, relative to Texas, they would tell 
you differently.
    Secretary Johnson. Right.
    Chairman Carper. In Delaware, we think they are huge in 
Oklahoma.
    Secretary Johnson. Right.
    Senator Coburn. Well, we have 4 million people and Texas 
has--what?
    Secretary Johnson. Understood.
    Let me answer the question this way. I came into office in 
December. We have a budget request that came out earlier this 
month. There are a number of things that I want to look 
carefully at from the beginning of the budget cycle to this 
time next year.
    How we devise the formulas for our grants, the risk 
formulas and so forth, are things that I believe I want to take 
a close look at because people raise issues like this one and 
say, why are we doing it this way?
    I know from dealing with bureaucracies for years that very 
often we do things a certain way and the answer is that is 
because we have always done it that way and it is too hard to 
change.
    That is not the right answer. In fact, that is the worst 
answer.
    So situations like this are things that I--every time I 
hear about something like this that you or other Senators or 
Congressman raise in correspondence or in hearings, I take it 
back, and I say, what about that? Why are we doing it that way?
    And I want answers. And I want good answers. Otherwise, I 
am not prepared to defend continuing to do it that way.
    Senator Coburn. All right. Well, thank you very much.
    And, again, we will have some additional questions for the 
record for the Secretary, if we could.
    Chairman Carper. Fair enough.
    Let's come back and talk a little bit about the Immigration 
and Customs Enforcement (ICE), if we can. We talked a little 
bit about it over breakfast today. I think we all appreciate 
how important the work that is done there.
    My recollection is we have no nominee. Am I mistaken, sir? 
No nominee to fill that position?
    Secretary Johnson. There is no nominee to be the Director 
of ICE, but it is a top priority of mine to bring you one, for 
the President to bring you one, and we are actively recruiting 
and vetting people right now.
    Chairman Carper. Good. I am glad that is a priority. Get us 
a good name, and we will do our part to vet that person and try 
to get him or her confirmed and at work.
    One of the things we saw--I mentioned this to you earlier 
this week. One of the things we saw in El Salvador was that we 
deport Salvadorans that come to this country illegally. We send 
them back. Fly them back into El Salvador.
    They are processed through a facility there. I think it can 
handle about 100 people. There is a proposal to double that 
space and actually improve the services that are provided by 
that return center for returning detainees to help them 
reassimilate into their communities and their country, to help 
them a little bit with their efforts to find a job, to maybe 
get some of the education they need to help them be eligible 
for the jobs that are there.
    One of the things we learned was for an expenditure of 
about $2 million they could double the space from 100 to 200 
people. Take them anytime with the flights coming back in. They 
receive flights like one flight a day except, I think, 
Wednesdays they have two flights. I think Sundays they do not 
have any.
    But, meanwhile, we have thousands of Salvadorans that are 
waiting to be flown back, and we have them in beds in this 
country. I forget what the price is for beds in these detention 
centers in our country, but it is substantial.
    Do you recall what it is? I am thinking it is $100 per 
person, $150 per person for a day.
    Secretary Johnson. I have heard $110 a day. That could be 
wrong, but that is the number I have heard. And I agree; it is 
expensive.
    Chairman Carper. Anyway, where I am going is for the 
expenditure of $2 million to double the capability of receiving 
people back, Salvadorans back in their native country, it would 
reduce significantly our head count of Salvadorans in this 
country, taking up these beds where we spend over $100 a day.
    I think that is an expenditure we ought to figure out to 
get that made, and I would just urge you and your folks to look 
at that--again, going at root causes. So, going back at root 
causes, this is one of them that we ought to look at.
    Also, the Administration--it might actually help us with 
the President's proposal on detention beds in this country for 
illegal detainees. I think the budget of the President takes 
the number of beds down from about 34,000, which is what we 
have mandated in the Congress, down to about 30,500.
    I am not sure how we are going to do that unless we take 
the kind of step that I just mentioned. So I urge you to keep 
that in mind.
    Secretary Johnson. Well, I would add to that also; there is 
a funding request for $94 million for an alternatives to 
detention program, which is pretty good.
    Chairman Carper. Yes. Take a minute and talk about it, 
please.
    Secretary Johnson. Well, it involves various, different 
types of monitoring of those who are released on bond or 
parole, and it is an effective program. We do not need to 
detain every single person who is in the system in the process.
    And you are correct that in this year and in prior years 
Congress has mandated that we maintain a 34,000-bed capacity.
    Our request this year is for 34.6 based on our best 
assessment that given our removal priorities those who are 
threats to national security, public safety, border security, 
that is the level we ought to be funding. And with an effective 
alternatives to detention program, we think that is the level 
and that is the wisest use of taxpayer dollars. So that is our 
request. That is our submission.
    Chairman Carper. Yes, we have seen braceletting and that 
sort of thing work in Delaware and in other States in order to 
bring down the head count in our prisons. You have to be 
careful of the folks we select for that kind of treatment, but 
I think it has real potential.
    The important thing is for the Administration to present to 
us in a compelling way, in a convincing way, that these 
alternatives to detention can be highly effective, and I think 
that is part of the solution to getting the Congress to go 
along.
    The other thing is what I talked about earlier about 
expanding the size of the return facility in places like El 
Salvador.
    I want to return, if I can, to cybersecurity and the--I 
mean, your thoughts on the work that has been done on the 
framework by the folks at NIST. They spent basically a year 
working on it and reaching out to a lot of different 
companies--financial services companies, technology companies, 
communications, telecoms.
    And, your thoughts in terms of the quality of the work that 
has been done, the result, and what is the next step 
particularly with respect to Homeland Security, and what kind 
of resources do you have and do you need to do it?
    Secretary Johnson. The framework stems from the 
Presidential directive and the Executive Order that was issued 
13 months ago.
    I think we did a lot of things right in connection with the 
framework. We worked with the private sector. We collaborated 
with them on a set of best practices, not regulations, but best 
practices.
    It was an inclusive process. We issued the framework 
publically a month ago, and I am told that it is getting a good 
reaction in the private sector.
    And we want to move forward with that, take any additional 
public comments and have a set of best practices that will work 
for the benefit of the private sector.
    As I have said to you before, I think, Chairman, I think 
that, for us, recruiting the top cybersecurity talent in this 
country to come serve their county at least for a time is 
critical to our cybersecurity future.
    I believe that we need to build trust between the Federal 
Government and the private sector right now insofar as 
cybersecurity is concerned. I want to position DHS at the 
center of that role.
    There is a fair amount, and this is unfortunate, of 
distrust of the Federal Government by the American public right 
now. A lot of people believe that the American public does not 
work for them.
    I want to try to build trust. I have a plan for meeting 
with those in private industry to talk to them about 
cybersecurity.
    One of the other issues we have is to a lot of people this 
whole topic is impenetrable because of the complexity of our 
terminology. So I would like to try to explain it in very 
simple, plain English terms, what the cyber threat means, to 
the average American.
    When I was at Georgia Tech a couple weeks ago, they have 
terrific cybersecurity talent like I know we do in other parts 
of the country. But a large university like Georgia Tech, or 
others, faces hundreds or thousands of cyber attacks almost 
daily that they have to address. So the young people in this 
country get it and understand it, and I think we in national 
leadership need to be in the same place.
    You and I have talked about various legislative proposals 
that I think we need to move on, and it sounds as if, 
politically, the time might be right to kind of re-attack on 
this issue. I very much support that, and I have laid out what 
I think would be good.
    And I know, Senator, you are thinking about this and 
working on this, and I want to work with you on that.
    Chairman Carper. Yes, we had a good conversation earlier 
today with you, Dr. Coburn and myself, and I am encouraged.
    We are talking about billions of dollars in different parts 
of your budget for one aspect or the other. My staff told me 
that the President's budget for DHS, with respect to helping 
industry adopt a framework, was a bargain-basement $6 million. 
For a big threat, and for a lot of industry and a lot of 
business players, that is not a whole lot of money, and some 
folks in industry have actually questioned whether that is 
really enough to be able to get the job done.
    I would just ask you to comment on that and the steps that 
DHS is taking to help industry to use the framework.
    It took me a while to get my head around the term, 
framework. You talked about this stuff that is kind of dense. 
And we used the words that we used----
    Secretary Johnson. I did not use the word, dense.
    Chairman Carper. OK.
    Secretary Johnson. Your word, not mine.
    Chairman Carper. Well, I would.
    We had a really smart guy from the Dartmouth Institute in 
Delaware the other night to talk to us about health care, how 
to get better health care results for less money. He has been 
very much involved in accountable care organizations, and we 
are seeing a rapid growth of accountable care organizations.
    Most people say, what is that? And, is that something for 
accountants? No, it is not. It is actually a way of how we 
coordinate and collaborate in the delivery of health care to 
get a better result for less money, but it is just misnamed.
    And, a framework--I said to someone, why do they call it a 
framework, and what is it really?
    I was told it is really a road map. It is really like a 
blueprint.
    And when I hear that technology, well, I can identify with 
that. I can sort of understand that.
    But, in terms of having the financial resources, human 
resources--to help industry use that road map, to use that 
blueprint, to strengthen their defenses and enable them to turn 
back those who are trying to hack in and create harm, any 
further thoughts you can give us along the line of the 
resources that we need?
    Secretary Johnson. I am sure if Suzanne Spaulding or 
Phyllis Schneck were here, they could spend the rest of the day 
answering that question.
    I think we are on the right path. I think that the key is 
establishing a set of best practices that is disseminated 
publically by the U.S. Government, that is a set of practices 
that private industry agrees with, embraces, helps to create, 
so that everyone else in private industry knows what the best 
in private industry considers to be the best practices.
    And I hope to be pretty visible myself in talking about 
cybersecurity, building on that framework, because this really 
is a national priority.
    And $6 million may be bargain-basement, but at various 
points along the way we will be asking Congress for more 
because this really is a national priority--$6 million is for 
that particular piece of the overall effort.
    Chairman Carper. All right. Well, I think the point I am 
trying to make is we just want to make sure that the budget 
that we ultimately adopt and put into place supports the cyber 
activities of the Department and does so effectively.
    One last point I would make, and then I am going to ask you 
just to give us just a short closing statement and kind of wrap 
up things, if you will.
    I want to go back to an issue raised by Senator McCaskill, 
who--I describe myself as a recovering Governor. She is a 
recovering auditor, and she chairs our Subcommittee that 
focuses on acquisition within this Committee.
    In your opening statement, you reported that you have 
initiated--I think you called it--a top to bottom review of the 
governance processes for the Department's acquisitions.
    As you know and as Senator McCaskill has referred to, the 
challenges that the Department had in managing in acquisition 
is a major reason that DHS's management remains on GAO's high-
risk list.
    If you look closely at GAO's analysis of the Department, 
you will see that GAO reports the Department has taken a number 
of positive steps, that when fully implemented should get 
better results for the money that the Department spends on 
major acquisitions.
    And an example or two--the Department is putting more 
effort into developing cost estimates, assessing the risk that 
might cause programs to go over budget or beyond schedule or 
not perform well. And we were told that the Department is 
developing a departmentwide approach to planning investments so 
it can do a better job of prioritizing spending and--one of Dr. 
Coburn's favorite things--eliminating duplication.
    That having been said, the Department still has some ways 
to go to mature these processes.
    Let me just ask a couple of questions. One is, can you tell 
us a bit more about what your review of the acquisition 
structure will look at?
    Secretary Johnson. The overall goal is an efficient, 
competitive process that manages to the right priorities.
    So every time I talk about acquisition in the Department of 
Homeland Security, I ask myself, well, where was the Department 
of Defense in 1958, in its 11th year, in this whole thing? And 
we need to do better than that.
    I am sure that as DOD came along the acquisition process 
got more and more mature. And we are in the same place, but we 
have a lot of lessons that we can learn from other Federal 
agencies.
    So sometimes we bristle against a centralized process 
because sometimes a centralized process can micromanage at 
levels that do not make a lot of sense in the field. But this 
is an area where I think if we have a more centralized process 
in terms of defining the priorities of the Department, defining 
what our resource needs are and go from there, we can, with the 
components, build a more efficient process.
    With some of the staff that I have hired over the last 3 
months, that is the mission I have given them, and we are 
spending a lot of time on that.
    And when I leave this job, I would like to leave that 
process, in particular, in a better place.
    Chairman Carper. All right. Going back to DOD, when were 
they created? That was 1947?
    Secretary Johnson. 1947.
    Chairman Carper. The year I was created and one of my 
favorite years.
    Secretary Johnson. I think that was a Brooklyn Dodgers 
year, too.
    Chairman Carper. Maybe so.
    Gene Dodaro was just in here the other day, testifying. 
That was yesterday. And GAO tells us in terms of their high-
risk list that they give us every 2 years, that major weapons 
systems cost overruns have actually grown in DOD from a couple 
hundred billion dollars to, I think, about $400 billion.
    So you can do better than that. And they can, too. And we 
want to make sure that you do.
    I know I have urged you to talk to a variety of different 
people. Again, one of the people I would urge you to just 
establish a good working relationship with, you and Ali 
Majorkas, your deputy, is with Gene Dodaro and the folks at 
GAO. They are not in the gotcha business. They have their heads 
and their hearts in the right place.
    I would urge you to consult with Gene Dodaro and maybe some 
of his folks and to get maybe some of their views. Just make 
sure you have their views on some of the specific initiatives 
or policies that ought to be part of your review when you look 
at the acquisition reforms that you all are going to adopt.
    The last thing is this; the key--and I have said this a 
number of times as I try to encourage my colleagues to move 
nominations through the Senate.
    We have had an Administration--five years into this 
Administration, it looked at the beginning of this year still 
like Executive Branch Swiss cheese. So many openings, so many 
holes, especially in the higher levels of the Department of 
Homeland Security.
    We have made real progress and continue to make, hopefully, 
progress. Again, Dr. Coburn has been a great partner in doing 
that, and our Committee has been very helpful. And we hope to 
fill--at least move one more nomination today with the Under 
Secretary for Science and Technology.
    The Administration needs to send us good people. I will be 
sending that message to the folks at the White House, and they 
need to hear that from us all.
    Secretary Johnson. And I believe there is no shortage of 
good people in the country, who want to serve their country.
    Chairman Carper. Yes, there are also a lot of people coming 
out of the military that are looking for jobs, and they have 
been warriors for us across the globe. A bunch of them would 
like to be cyber warriors, could be cyber warriors.
    You need resources. We need resources in the private sector 
and the public sector all across the country. So we have to 
make sure we are taking advantage of those opportunities.
    I want to say I think you are off to a good start. I think 
you are the key to any organization doing well.
    In my experience, I do not care whether it is a military 
organization, if it is a business, if it is a school, if it is 
a government unit. I do not care what. The key is leadership. 
There is nothing that is more important than that.
    And I think you are providing that kind of leadership, and 
your deputy is providing that kind of leadership. You need to 
make sure you have the team around you, and that is a shared 
responsibility.
    But any closing thoughts that you would like to share with 
us?
    Secretary Johnson. I guess two things, Senator. And thank 
you for the opportunity to comment, and thank you for your 
comments.
    One, when I first heard that DHS was on the GAO high-risk 
list, I went back and read the report myself, and I agree with 
your assessment that the GAO notes in a number of places the 
progress that DHS has been making to get off the high-risk 
list. So we are definitely moving in the right direction, and I 
think that reflects a lot of hard work by a lot of people in 
management. So that is a good thing.
    The last thing I would like to say is something that I did 
not fully appreciate until I got into this job. I knew it 
intellectually, but now I fully appreciate it, even after 3 
months.
    When you are Secretary of Homeland Security, you are not 
only the guardian of this country's homeland security; in a 
very large respect, the Secretary is also the guardian of a lot 
of our American values.
    So there are ways to achieve perfect homeland security if 
you devote the resources to it, but we would also be 
sacrificing a lot of our values. I could build you a perfectly 
secure structure, but it would look like a prison.
    In this country, we cherish privacy, freedom of movement, 
liberty. We celebrate diversity. And those are things that I 
feel as though I am responsible for as well.
    So homeland security is something that we have to be 
vigilant about, but it always is striking a balance between--
and we talked about this at my confirmation hearing--the places 
that Americans should be allowed the freedom to go publically.
    If you want perfect security in this building, you would 
keep every private citizen out, without a lot of screening. But 
that should not be the case. This is a public building, and 
your constituents, the American public, ought to be able to 
come see their representatives in Congress with the relative 
ease of movement.
    So homeland security, any type of security, is always a 
balance between the safety of the American public and the 
safety of the things that we cherish in this country. So thank 
you very much.
    Chairman Carper. That is a great note to close on.
    I gave blood last Friday in a town just north of Dover, in 
a town called Smyrna, and when I walked in I had to go fill out 
some paperwork and do a questionnaire. As I was walking in 
there to actually give blood, I walked by the canteen where 
people were recovering, not really recovering, but they were 
having something to eat and something to drink before they let 
them leave or go out on their own after giving blood.
    And this one woman looked at me, not with a smile, but she 
said to me just very abruptly; she said, get the government out 
of my life. That is what she said. Get the government out of my 
life. I said, well, good morning. How are you, ma'am? I started 
to walk away. I said, well, thank you for that.
    I started to walk away, and then I went back, and I said, 
ma'am, if you had any idea the threats that our Nation faces 
from within and without on a daily basis, you would probably 
want the government to be in some ways more involved in your 
life.
    But there is tension here. As you point out, there is a 
tension between trying to make sure that we are secure but also 
to make sure that we are protecting our privacy and our civil 
liberties.
    I think some people in our country today believe that all 
their e-mails are being read and all their phone calls are 
being listened to. We do not have enough cyber warriors in the 
National Security Agency (NSA), Homeland Security, or any other 
place to begin to do that.
    And the key for us, again and again and again, is to figure 
out where the risks are, where do we face the risks, to the 
best of our ability, and make sure we have the kind of 
resources to address them. The higher the risk the more the 
resources, human and otherwise.
    Again, being as respectful as we can and ought to be for 
our civil liberties and our privacy, but to make sure at the 
same time that we are more secure. Not an easy job. It is a 
tough job. And it is a shared responsibility for you and your 
team.
    For the Navy, the P3 squadron, in El Salvador, flying drug 
interdiction, the people on the border, all kinds of folks that 
are working for our country--shared responsibility.
    And we are encouraged that the Department of Homeland 
Security is in good hands, and we very much look forward to 
making sure you have your team and making sure that we work 
together and you have the resources that you need but also 
making sure that you do not have the resources you do not need.
    All right. With that having been said, the hearing record 
will remain open for 15 days. That is until March 28, at 5 
p.m., for the submission of statements and questions for the 
record.
    This has been a good hearing. We are grateful for your 
presence and your preparation, and we look forward to working 
with you. Thank you so much.
    This hearing is adjourned.
    [Whereupon, at 11:57 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
